audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the Medford Police Department, 
Oregon
GR-90-00-018
May 2000
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Medford Police Department (MPD), Oregon.  The purpose of the grants is to enhance community policing.  The MPD was awarded a total of $750,000 to hire ten full-time officers for community policing.

We reviewed the MPD's compliance with seven essential grant conditions.  We found the grantee's budgeting, hiring, local match, retention, and community policing practices to be acceptable.  However, we found weaknesses in two other areas, as identified below.

We found the MPD reimbursement requests for the FAST and UHP supplemental grants included unallowable overtime and holiday buyback expenses.  These unallowable expenses were quantified and removed from the reimbursement request for the quarter ended September 30, 1999 (overtime of $30,233 and holiday buyback of $14,229).

	The financial status reports (FSRs) included unallowable overtime and holiday buyback expense prior to the report for the quarter ended September 30, 1999.  Audit adjustment removed previously included unallowable expense (overtime of $40,311 and holiday buyback of $18,972) and excluded all current unallowable expense from the FSR for the quarter ended September 30, 1999.

	The federal share on FSRs had not been decreasing annually as required.  The percentage had remained constant at 75 percent.  The percentage was reduced to 40 on the financial status report for the quarter ended September 30, 1999.

	Several status reports were either not accurate, not timely, or not filed.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I